Validation of Air Enforcement Data Reported to
EPA by Pennsylvania
                                              #7100115


Inspector General Division Conducting the Audit:
Mid-Atlantic Division
Philadelphia, PA

Program Office Involved:
Air, Radiation & Toxics Division
Philadelphia, PA



                                      TABLE OF CONTENTS

   •   EXECUTIVE SUMMARY
   •   CHAPTER 1 INTRODUCTION
         o Purpose
         o Background
         o Scope and Methodology
         o Prior Audit Coverage
   •   CHAPTER 2 PADEP NOT REPORTING SIGNIFICANT VIOLATORS TO EPA
         o Clean Air Act Was Violated in Numerous Ways
         o PADEP Not Informing EPA Allows Violations to Persist
         o Not Reporting Significant Violators Hinders EPA Oversight
         o Facilities Constructed Without Permits and Not Reported to EPA
         o PADEP's Reasons for Not Reporting
         o EPA Was Generally Aware of PADEP Not Reporting
         o EPA is Changing to Performance Partnership Grants
         o PPGs May Not Be Effective CONCLUSION
         o RECOMMENDATIONS
   •   CHAPTER 3 INSPECTIONS OF AIR FACILITIES NEED IMPROVEMENT
         o Some PADEP Level 2 Inspections Were Inadequate
         o Corrective Action Not Always Verified RECOMMENDATIONS
   •   CHAPTER 4 OTHER MATTERS
         o RECOMMENDATION
   •   APPENDIX A -- PADEP'S RESPONSE TO THE DRAFT REPORT
   •   APPENDIX B -- EPA'S RESPONSE TO THE DRAFT REPORT
   •   APPENDIX C -- CITIZENS ADVISORY COUNCIL REPORT
         o OIG EVALUATION
   •   APPENDIX D -- DISTRIBUTION
